<html>
<title> - OVERSIGHT OF THE LIBRARY OF CONGRESS' STRATEGIC PLAN: PART 2</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
      OVERSIGHT OF THE LIBRARY OF CONGRESS' STRATEGIC PLAN: PART 2

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2018

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       Available on the Internet:
         https://www.govinfo.gov/committee/house-administration
         
         
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-310                   WASHINGTON : 2018               
         
         
         
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia


      OVERSIGHT OF THE LIBRARY OF CONGRESS' STRATEGIC PLAN: PART 2

                              ----------                              


                        WEDNESDAY, JULY 25, 2018

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:27 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, Walker, 
Smith, Loudermilk, Brady, Lofgren, and Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Steven Wall, Deputy 
General Counsel; Dan Jarrell, Legislative Clerk; Matt Field, 
Director of Oversight; Courtney Parella, Communications 
Director; Jamie Fleet, Minority Staff Director; Khalil Abboud, 
Minority Deputy Staff Director; and Eddie Flaherty, Minority 
Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's hearing examining the strategic plan 
of the Library of Congress.
    The hearing record will remain open for 5 legislative days 
so Members may submit any materials they wish to be included.
    A quorum is present, so we may proceed.
    The Library of Congress is an unparalleled institution. 
There is simply no other library nor institution within America 
quite like it. With over 167 million collections items, from 
maps to photographs, newspapers, movies, baseball cards, 
manuscripts, and new books, rare books, and all kinds in 
between, its repository of knowledge is unmatched.
    While the Library's location and components have changed 
over time, its fundamental mission to serve Congress with that 
repository has not. The Library was created by Congress in 
1800. From its founding until 1897, the Library was housed in 
the Capitol. In 1815, Thomas Jefferson sold his famous personal 
collection to Congress for the new Library. In 1832, the Law 
Library was created. In 1870, copyright law vastly expanded the 
Library collections' breadth and depth.
    In 1896, the Joint Committee on the Library held important 
hearings on the future of the Library, which were instrumental 
in setting the strategy for the Library headed into a new 
century. In 1914, the Legislative Reference Service was created 
to assist Congress, later becoming the CRS we know today. In 
1939, the Adams Building opened, followed by the Madison 
Building opening in 1980.
    Understanding that knowledge objectivity and primary 
resources are vital to a healthy and thriving deliberative 
Congress and body politic, the Library has served and continues 
to serve Congress and the American people to this day. As 
history has shown, the Library adapts and grows, which is why 
we are here.
    Almost exactly 1 year ago, Dr. Hayden, you testified before 
this Committee about your then-beginning stages of the 
Library's strategic planning for the future. We are here today 
to receive an update on your progress.
    When will the strategic plan be completed? What are its key 
characteristics and components? What has the Library learned 
about itself over the past year? These are questions we hope to 
have answered today as we assess the Library's ability to meet 
the demands and challenges and the mission into the 21st 
century.
    I want to thank our excellent panel for their appearance 
before the Committee today.
    And I would now like to recognize the Ranking Member of the 
Committee, Mr. Brady, for the purpose of providing an opening 
statement.
    Mr. Brady.
    Mr. Brady. I want to thank the Chairman for calling this 
hearing today and thank the witnesses for their testimony.
    The Library of Congress is an amazing place, not only for 
Members but for our constituents as well, though, like any 
other institution of its size, the Library has its share of 
management issues.
    Since 2011, the Library inspector general has been 
recommending the Library develop a strong strategic plan to 
deal with these challenges. Under Dr. Hayden's leadership, the 
Library is engaging in doing such a plan, and it will soon be 
up to Congress to make sure we do our part to make the plan a 
reality.
    Again, I also thank the witnesses, and I yield back the 
balance of my time.
    The Chairman. The gentleman yields back.
    Does any other Member wish to be recognized for the purpose 
of an opening statement?
    Seeing none, I would now like to introduce our panel of 
witnesses.
    Dr. Carla Hayden was sworn in as the 14th Librarian of 
Congress on September the 14th, 2016. And in a city where 
history is made, Dr. Hayden certainly made history. The first 
woman and the first African American to lead the national 
library was nominated to the position by President Barack Obama 
on February the 24th, 2016, and her nomination was confirmed by 
the United States Senate on July 13th, 2016.
    I have to say, it seems like you have been here longer than 
July of 2016.
    Prior to that, she served as CEO of the Enoch Pratt Free 
Library in Baltimore, Maryland. She has also been a member of 
the National Museum and Library Services Board, deputy 
commissioner and chief librarian of the Chicago Public Library, 
and assistant professor for library and information science at 
the University of Pittsburgh, and library services coordinator 
for the Museum of Science and Industry in Chicago.
    She began her career with the Chicago Public Library as a 
young adult services coordinator and as a library associate 
and, dear to her heart, children's librarian.
    Dr. Hayden was president of the American Library 
Association from 2003 to 2004. And in 1995 she was the first 
African American to receive Library Journal's Librarian of the 
Year Award in recognition of her outreach services at the Pratt 
Library, which included an after-school center for Baltimore 
teens offering homework assistance and college and career 
counseling.
    Dr. Hayden received a B.A. from Roosevelt University and an 
M.A. and Ph.D. from the Graduate Library School of the 
University of Chicago.
    Inspector Kurt Hyde has extensive experience in both the 
public and private sector. Prior to joining the Library, Mr. 
Hyde was the Deputy Inspector General for Audit and Evaluations 
at the Special Inspector General for the Troubled Asset Relief 
Program, or TARP. Similarly, he was the Deputy Assistant 
Inspector General for the Resolution Trust Corporation during 
the savings and loan financial crisis in the 1990s.
    His other government services entail working at the 
Government Accountability Office and as a senior executive at 
the Department of Transportation Office of Inspector General.
    Before joining the Library, Mr. Hyde, a certified public 
accountant, was a partner in the government services practice 
at a Big Five accounting and consulting firm, where he advised 
the Centers for Medicare and Medicaid on their implementations 
of Medicare Plus Choice and other government clients on 
customer-centric solutions.
    I would now like to introduce Mrs. Dianne Houghton--and did 
I pronounce that right?
    Ms. Houghton. Yes, you did.
    The Chairman. Is the Senior Advisor and Director of the 
Strategic Planning and Performance Management Office at the 
Library of Congress. In this role, Ms. Houghton is responsible 
for enterprise-level planning and performance management 
activities, including development of the Library's strategic 
plan. She is also leading an initiative to update and integrate 
the Library's planning, performance management, and risk and 
internal control program frameworks.
    Before joining the Library, Ms. Houghton was the chief 
operating officer of New Leaders, a national nonprofit that 
develops transformational school leaders. During this time, she 
managed the organization's technology, finance, strategic 
planning, and talent management teams while rebuilding the 
leadership team and overseeing the design and launch of 
expanded services.
    Before her work with New Leaders, Ms. Houghton was the 
chief executive officer of Digital Focus, Inc., a technology 
solutions provider. There she led a dramatic performance 
turnaround, establishing profitability within 5 months after 4 
years of losses.
    She also served as President and COO of Jaffe Associates. 
She doubled the organization's size and revenues, which led to 
her being named to the Inc. 500 list of fastest-growing private 
companies by Inc. Magazine.
    Before filling executive roles, Ms. Houghton was a 
management consultant working with many Fortune 100 companies 
and government organizations to create and launch strategic 
initiatives. She is also the coauthor of the book ``Visions, 
Values, and Courage: Leadership for Quality Management.''
    You all exhausted me. I mean, what amazing credentials. And 
we thank you for being here.
    And we have received your written testimony. You will each 
have 5 minutes to present a summary of that submission. To help 
you keep your time, you know how it works. The timing device 
that is there on the table will be a green light for the first 
4 minutes. It will turn yellow when a minute remains. And when 
the light turns read, the trapdoor will--no, I mean, the light 
turns red, it means your time has expired.
    And we are honored to have each of you here and look 
forward to this.
    So, the Chair now recognizes our witnesses for purposes of 
an opening statement.
    And we will begin with you, Dr. Hayden.

  STATEMENTS OF THE HON. CARLA HAYDEN, LIBRARIAN OF CONGRESS; 
   KURT W. HYDE, INSPECTOR GENERAL, LIBRARY OF CONGRESS; AND 
DIANNE HOUGHTON, DIRECTOR OF STRATEGIC PLANNING AND PERFORMANCE 
                MANAGEMENT, LIBRARY OF CONGRESS

               STATEMENT OF THE HON. CARLA HAYDEN

    Ms. Hayden. Good morning, Chairman Harper, Ranking Member 
Brady, and Members of the Committee. I am very pleased that----
    The Chairman. I don't know that----
    Ms. Hayden. And now that the microphone is on, I will 
reiterate my greeting to Chairman Harper, Ranking Member Brady, 
and Members of the Committee, because I am very pleased to be 
here today to provide an update on the Library's strategic plan 
and to give more information on the accomplishments so far and 
the progress that we have made.
    And I want to begin by thanking the Committee for its 
support and commitment to the Library in its over 200-year 
history.
    I am now in my second year as Librarian, and I am even more 
committed to doing all that I can to ensure that the Library's 
unparalleled collections and resources are available to all. 
And those resources, of those, the strongest, I believe, are 
the expertise and the commitment to public service of the 
dedicated staff.
    And it was just a year ago that I first addressed this 
Committee on the topic of strategic planning, and I am pleased 
today to share with you that we are on track to publish by 
October 1st a plan to guide our activities over the next 5 
Fiscal Years.
    The new strategic plan establishes a framework for the 
entire agency that is driven by our mission to serve Congress 
and the American people. Our mission incorporates the key 
elements of what we do and why we do it and for whom. And it 
is, quote, ``to engage, inspire, and inform Congress and the 
American people with a universal and enduring source of 
knowledge and creativity.''
    And with that core mission reinforced, the new strategic 
plan takes shape around unifying concepts important to every 
unit in the organization, and the most critical of which is a 
clear and persistent focus on users.
    We established a user-centered direction forward. That 
means that we will enrich the Library experience for all users, 
including, first and foremost, Members of Congress, who may 
engage with the Congressional Research Service or read books 
from our stacks; creators who draw inspiration from our 
collections or use the services of the Copyright Office to 
protect their creative work; institutions like libraries and 
schools, who serve as connectors between the users and the 
Library of Congress; and learners of all ages who use our 
unique and trusted resources to learn about history, civics, 
and any other part of our shared cultural heritage.
    As I testified last year, establishing a strategic vision 
and structure for the agency's future has been a top priority 
for the agency and for me. To date, we have taken several 
important steps to make that happen.
    The Office of Strategic Planning and Performance 
Management, headed by Director Dianne Houghton, who reports 
directly to me, has been hard at work over the last 15 months 
strengthening the agency's overall strategic directional and 
operational planning process.
    Consistent with best practices, the Library has developed a 
strategic plan with input from hundreds of Library employees, 
managers, and leaders. All Library service units have played a 
key role, as have external stakeholders and users. And we have 
regularly consulted with our congressional oversight committees 
throughout the process.
    And, as a result, four agency-wide principles have emerged 
as our unifying goals: expanding access, enhancing service, 
optimizing resources, and measuring impact.
    The plan, which is now near completion, will be accompanied 
by new or revised service-level unit directional plans, which 
are on track to be completed by January 2019 and will speak to 
each unit's mission-specific goals and objectives.
    I thank the IG, Mr. Hyde, for acknowledging our progress 
and agree with the essence of the report. It is essential that 
the Library build a mature, data-driven, and impactful planning 
and performance management system. It will, as noted in his 
report, take several years along a carefully planned trajectory 
to achieve the result, and the report certainly provides 
helpful guidance.
    I also wanted to take a moment to discuss the strides we 
are making to make performance matter, including the successful 
launch of a new performance management system in fiscal year 
2016. For the first time, the agency is working to instill a 
performance culture that is grounded by regular review of 
performance at the executive level.
    And, in addition, internal risk control and management 
continues to be of central importance. The Library designed, 
piloted, and launched our first agency-wide risk management 
process nearly a year ago.
    And so, in closing, the Library is poised to implement a 
unifying strategic plan that is user-centered and forward-
thinking, one that will facilitate measurable agency outcomes 
as we continue to make advances in planning.
    So thank you for providing me this opportunity for an 
update.
    [The statement of Ms. Hayden follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    The Chairman. Thank you so much, Dr. Hayden.
    The Chair will now recognize Mr. Hyde for 5 minutes for the 
purposes of his opening statement.

                   STATEMENT OF KURT W. HYDE

    Mr. Hyde. Chairman Harper, Ranking Member Brady, and 
Members of the Committee, thank you for the opportunity to 
testify on the Library of Congress' strategic planning and 
performance management and the work being done by my office in 
this area.
    As you know, strategic planning and management has been on 
the IG's list of the Library's top management challenges since 
September 2011. We put it on the list because many of the 
challenges over the years have flowed from the Library not 
having a proper strategic planning framework in place. By that, 
I mean the Library has not been able to effectively identify 
strategic goals, stay focused on meeting those goals, and hold 
itself accountable when the goals are not met. We believe that 
this resulted in lost opportunities.
    We have demonstrated this in our April 2015 report on the 
Library's eDeposit Program, an effort to collect digital 
materials. The audit highlighted the importance of leaders 
staying involved and focusing on accountability. We could not 
determine whether progress on the program had met management's 
expectations after 5 years of effort because Library leadership 
at the time had not established quantifiable expectations 
related to cost, performance, and project completion.
    Under Dr. Hayden's leadership, the Library has taken a 
stronger approach. For example, Dr. Hayden has elevated the CIO 
and Director of Strategic Planning positions to report directly 
to her, which sends a strong message and comports to best 
practices. She has mandated a new collaborative Library-wide 
strategic plan integrated with unit plans. And she required her 
high-level executives to discuss the status of priority 
performance goals at monthly executive committee meetings, 
something that had not been done previously.
    The Library is at the start of a long-term process to get 
on track. We reported last week calling for continued, 
persistent focus to strengthen the Library's strategic planning 
management, identifying the practices that would serve the 
Library well as it looks to strengthen this area, and those six 
practices are: improving its focus on users; implementing a 
planning and performance culture at the executive level; 
creating a strategic plan that meets Federal Government 
standards; creating a human capital linkage to planning and 
performance; linking budgetary resources to expected 
performance results; and managing risk across the Library 
service units when planning and conducting performance 
management.
    Dr. Hayden's focus in some of these areas, such as 
addressing users' needs and focusing on creating a performance 
culture, is definitely a step in the right direction. Because 
the Library is still in the early stages of building its 
management capacity in this area, it needs to be vigilant about 
ensuring success with strategic planning over the long term. As 
the saying goes, the Library will be building the plane while 
flying it.
    Since Dr. Hayden is piloting the Library through this 
process, her persistent leadership and guidance will be vital. 
Progress will not occur with the delivery of random and 
unconnected tasks. The imperative is ensuring follow through on 
their execution of the implementation roadmap and year-to-year 
driving of the synchronized unit plans. In addition, as stated 
in our top management challenges, the Library must execute a 
thoughtful digital strategy that integrates with the other 
plans.
    An enormous amount of quality data will have to be 
collected, analyzed, and reported as part of this process. 
Strategic planning and performance management pay dividends 
when executives make tough priority decisions based on 
performance data.
    It will take time for the Library to successfully develop 
and implement a more robust planning framework, one that 
includes goals with specific and aggressive outcomes that can 
be used to evaluate performance using verifiable metrics.
    Thank you for this opportunity to address the Committee. I 
ask that our July report be admitted into the record as my 
formal written testimony, and I would be happy to answer any 
questions.
    [The statement of Mr. Hyde follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    The Chairman. Thank you, Mr. Hyde.
    The Chair will now recognize Director Houghton for 5 
minutes.

                  STATEMENT OF DIANNE HOUGHTON

    Ms. Houghton. Thank you. Good morning, Chairman Harper, 
Ranking Member Brady, and Members of the Committee. Thank you 
for inviting me to provide testimony on strategic planning at 
the Library of Congress and to share the progress we have made 
in developing a strategic plan that puts forward a clear and 
exciting vision for the agency's future.
    In the spring of 2017, we set the stage for our planning 
work by launching our Envisioning 2025 initiative. Over the 
next 7 months, we engaged more than 350 staff and managers from 
all parts of the Library to explore, research, and discuss 
trends and topics vital to the agency's future.
    During this work, leaders from across the agency recognized 
the need to establish some shared language. We felt an 
effective strategic plan for the Library must build on concepts 
that transcend our organizational boundaries and unify our 
discrete service units.
    As a result, we now define the role of the agency in a way 
that resonates with all parts of the Library, echoing the 
organizing principles Thomas Jefferson applied to his personal 
library through the concepts of memory, knowledge, and 
imagination.
    ``Memory'' refers to our work to acquire, sustain, and 
provide access to a unique and universal collection. 
``Knowledge'' refers to providing authoritative and objective 
research, guidance, analysis, and information. And 
``imagination'' refers to inspiring and encouraging creativity 
and promoting and supporting the protection of the work of 
creators.
    We also developed a shared view of key user groups across 
the agency, defined as Congress, creators, learners, and 
connectors.
    And, finally and most importantly, we agreed on a user-
centered direction forward.
    With this foundation, strategic planning activities were 
launched in December with a team comprised of agency staff and 
consultants who were engaged to help expand our planning 
capability and to educate staff in planning concepts and 
techniques.
    Over the winter and spring, we moved through our planning 
process, including structured research and analysis of many 
different sources of information, workshops, open forums, 
exercises, and strategy labs.
    And, consistent with best practices, our approach has 
remained highly participative in all activities. We have 
engaged over 500 staff and managers, both here on Capitol Hill 
and at our Culpeper campus. We have engaged Library users and 
stakeholders through surveys and interviews. And we have 
received input and shared approaches from similar information-
based organizations and peer agencies. The result is a 
strategic plan that will guide the agency in expanding our 
reach and deepening our impact with our users.
    It begins with our vision. We have crafted an aspirational 
vision statement that speaks to the sense of connection that we 
hope to build to the Nation's people, your constituents. Our 
vision is that all Americans are connected to the Library of 
Congress. The vision reflects our strong commitment to focusing 
on our users, better understanding their needs, and making our 
universal and enduring source of knowledge and creativity more 
discoverable, accessible, relevant, and useful.
    We next agreed on a set of goals and objectives to drive 
this vision of connection. Our first goal is to expand access, 
making our unique collections, experts, and services available 
when, where, and how users need them, whether visiting Capitol 
Hill or accessing the Library remotely.
    Our second goal is to enhance services, creating valuable 
experiences for every user by elevating digital experiences, 
transforming in-person experiences, and developing more user-
centered content.
    Our third goal is to optimize resources, continuing our 
work to modernize, strengthen, and streamline our operational 
capabilities and invest in our staff for the future.
    And our fourth and final goal is to measure impact by 
committing to use data to better understand our users and to 
measure the impact of our collections and services.
    The coming months hold important milestones for our work, 
including communication and release of the strategic plan at 
the start of the fiscal year, completion of the service-unit-
level planning aligned to the new plan, and elevation of key 
work and initiatives from these unit-level plans to an agency-
level implementation roadmap. This roadmap will be the means to 
track and report on the fulfillment of our strategic plan 
commitments in the years ahead.
    I thank the Committee again for inviting me to provide 
testimony, and I look forward to answering any questions.
    [The statement of Ms. Houghton follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Thank you so much, Director.
    It is now time for the Members to ask questions of you as 
witnesses, and I will begin by recognizing myself.
    And, Dr. Hayden, I have some questions related, obviously, 
to the strategic plan completion. As you mentioned in your 
testimony, you plan on this being completed and released on 
October the 1st, I believe?
    Ms. Hayden. Yes.
    The Chairman. With a little over 2 months until that date, 
are you fully committed to that deadline? Do you anticipate any 
deviation from that?
    Ms. Hayden. We are on track to meet the deadline, and we 
are actually very excited about being able to make sure that 
the expectation that it will be presented on October 1st will 
be met. So the excitement is building, even 2 months away.
    The Chairman. Gotcha.
    As you also stated, strategic planning does not and will 
not end on October 1st.
    Ms. Hayden. No.
    The Chairman. In November, an implementation roadmap will 
be completed to execute the plan. In January of next year, 
service units will have operational unit and center directional 
plans in place to guide their specific metric space priorities 
and progress during the plan's timeframe.
    How will you ensure the service units under your leadership 
will remain committed to and, in fact, be enthusiastic about 
the overall plan and their specific directional plans?
    Ms. Hayden. Keeping the enthusiasm and the accountability 
and tracking together are going to be a major focus. And what 
is noted in the report, the IG report, the book execution 
really discusses--and that is something that I am very 
committed to--that we make sure that the tracking takes place 
at each executive-level committee meeting--and that is already 
in place now, and we will be making that a regular feature--as 
well as having each of the service units present their progress 
on their service unit activities.
    And so, baking it in the cake, basically; that it is not 
going to be a plan that sits on a shelf and there is a lot of 
enthusiasm and ``here is the plan.'' It is a living document, 
and it will be revised and reviewed continually.
    The Chairman. Ok.
    Are you making any changes or will you change anything 
about how you hold your leaders accountable?
    Ms. Hayden. One of the main things that we will continue to 
do--and this is not a change, because we have been doing it in 
the past year of having the reporting out and presenting--we 
will be trying to make sure that there are more opportunities 
for more unit-level staff members to have a reporting 
opportunity at different forums as well.
    And as Ms. Houghton has talked--we have talked quite a bit 
about how do we make sure that as many as staff members as we 
can are able to talk about what they are doing in their units 
and sub-units for the plan as well, so it is not just at the 
executive leadership level but that there are other 
opportunities.
    The Chairman. As you know, in 2015, the Government 
Accountability Office concluded a very lengthy IT audit--
    Ms. Hayden. Yes.
    The Chairman [continuing]. Of the Library. They made 31 
public recommendations. The IT health, security, and 
capabilities of the Library are paramount to your vision of 
achieving success. Will all 31 recommendations be closed when 
the strategic plan is unveiled?
    Ms. Hayden. The recommendations--and that is a wonderful 
story to be able to tell. Of those 31 public recommendations, 
20 have been completed and approved by GAO, with 6 more that 
are being reviewed. And the remaining five will be submitted by 
the end of September, and the evidence will be presented then. 
So we are very pleased with the progress that has been made on 
those recommendations.
    The Chairman. And I know that security and IT challenges, 
cybersecurity challenges, are always an ongoing challenge for 
everyone. And I am pleased to know that you are staying on top 
of that.
    How will your vision, as you have seen in this plan, how is 
that going to continue to guide the Library for years to come?
    Ms. Hayden. My vision as Librarian is really an extension 
of what I have known and have come to in this past 2 years 
really appreciate it even more, of the dedication of the staff 
members who have worked to preserve and conserve and collect 
materials and to make those materials accessible and to 
generate service to Congress at the highest level as well as to 
inspire people to be creative and use our copyright system.
    And so that vision of expanding and sharing with the 
American people and anyone that wants to participate is even 
more of a--I watch for it. I, frankly, get very excited, 
thinking about the possibilities. And to know that so many 
staff members at the Library of Congress are dedicated and 
right there and ready to go is very heartening.
    The Chairman. Thank you very much, Dr. Hayden.
    I will now recognize Ranking Member Brady for 5 minutes for 
questions.
    Mr. Brady. Thank you, Mr. Chairman.
    Dr. Hayden, I want to thank you for visiting my district in 
September and for spending time at the Darby Library.
    Ms. Hayden. Yes.
    Mr. Brady. The Darby Library opened in 1743 and is the 
oldest continuously operating library in the country. And your 
visit really uplifted all the people that were there, all the 
volunteers. As you well know, there are many, many volunteers 
that are there. And, again, I want to thank you. They still 
can't stop talking about your visit there. And, again, the 
oldest library in the country.
    How do community libraries like the Darby Library benefit 
from the strategic plan?
    Ms. Hayden. What has been heartening--and the visit to 
Darby was one example--the idea in communities throughout this 
country--and I have been visiting different States and going to 
rural areas. I have been in Illinois and West Virginia and 
Arkansas and Mississippi. In all of the States, whenever I go--
and Ohio and Michigan, and I can keep going--every time I talk 
about the Veterans History Project, being able to have local 
veterans record their histories, talking about live-streaming 
programming from the Library of Congress, traveling exhibits, 
expanding the reach, putting the digitized collections--people 
throughout this country are proud to know that the Library of 
Congress can serve them, and they are very excited, because it 
allows community libraries to focus on their specific community 
needs and know that they have this wonderful resource at their 
fingertips available to them.
    So that has been the real synergy. And there is a real 
hunger in the country to really take ownership and say, ``Wow, 
the Library of Congress.'' And people are also saying, ``You 
would come to us.'' And that is what we really want to expand, 
that access, and let everyone know that the Library of Congress 
serves the American people.
    Mr. Brady. And how will this plan benefit people if they 
use the Library day to day? How will constituents using Library 
resources or a librarian working within the Library of 
Congress, a staffer working within the CRS, benefit? How do 
they benefit because of this reorganization?
    Ms. Hayden. Each of the service units--and Ms. Houghton 
mentioned that--are developing their unit plans that will be 
very focused on their particular users.
    So the Congressional Research Service will be looking at 
their users, the Congress and staff, and how they can make sure 
that those services are more efficient and effective and really 
taking care of that.
    The copyright community and the creators, how can those 
operations be modernized and more responsive.
    And, of course, library services, the real heart of the 
collections, would be focused on researchers, scholars, young 
people.
    All of the service units will be focused on their 
particular users.
    Mr. Brady. Thank you, Doctor, and thank you for your 
service.
    And I yield back, Mr. Chairman.
    The Chairman. Mr. Brady yields back.
    The Chair will now recognize the Vice Chairman of the 
Committee, Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman and Mr. Brady.
    I also thank you, Dr. Hayden. I appreciate all you have 
done at the Library. And since they have asked you a lot of 
questions, I am going to move over to Mr. Hyde. But I want to 
tell you I appreciate you coming to my district not too long 
ago and touting the successes of the Library. So thank you for 
your work.
    Ms. Hayden. Thank you.
    Mr. Davis. Inspector Hyde, thank you, also, again for being 
here today. Inspector generals, by nature, often live a 
professionally friendless existence, and I hope that is not the 
case with you. But we appreciate your commitment to a sound and 
transparent Library of Congress operation.
    Your office has flagged the Library's strategic planning 
for years, as seen in your most recent report released just a 
week and a half ago. My question is simple: What has the 
Library been lacking? And why did it take so long for somebody 
like Director Houghton to be brought onboard?
    Mr. Hyde. Yes, thank you for the question. I think that 
what had been lacking--and this is what is encouraging about 
what we are seeing so far, because it is different--it is top-
down leadership. Strategic planning is all about top-down 
leadership. And there needs to be a persistent focus on that.
    And it is not the most exciting thing, in a lot of 
respects, for execution, because you are talking about it 
daily, weekly, monthly with, you know, with the executives, and 
you are making sure that there is--we talked about the 
intricacies here, about the delivery to the user, and it can be 
very complex. So it is important that everybody stays focused 
and on target.
    Mr. Davis. OK.
    Along that same line, Inspector Hyde, what insights can you 
share with this Committee about the Library's strategic 
planning efforts over the last year and a half?
    And we are nearing the completion of the plan, and are you 
satisfied with the process by which the Library constructed its 
plan? And do you believe it adhered to the best practices 
practiced by other large libraries, cultural institutions, or 
government agencies?
    Mr. Hyde. I am very encouraged. And I think what doesn't 
show up when you actually see the strategic plan itself, the 
document itself--it can be a few pages long--is you don't see 
all the effort that went into putting it together. And we have 
been very encouraged by the effort by the Library of putting it 
together, identifying their users and, in addition, I think, 
the things that they need to put in place in order to make sure 
the execution over the next 5 to 10 years takes place.
    So I am very encouraged.
    Mr. Davis. Well, I am glad you are encouraged. I am too. 
And, frankly, that is good to hear from you, because when my 
librarians that we met with in Rochester, Illinois, with Dr. 
Hayden, came to see her, they had fans. They said, ``I am a 
Carla Hayden fan.'' I still have one, and I am too.
    Mr. Hyde. Do they have one for me too?
    Mr. Davis. Yes.
    Well, last, I want to ask, once this plan is released, do 
you have any concerns with the Library's ability to implement 
it and execute it? And does the Library have the proper 
leadership and tools at their disposal to make sure this plan 
gets executed?
    Mr. Hyde. I think they are on the right track. I think they 
are developing the tools. I think that there are some new areas 
of focus, which they have had before, but I think it is a 
concentration, which, for example, is on identifying the users.
    The important thing there is to collect good user 
information. We all go through surveys, periodic surveys. That 
is what it is, and so how do you collect that information, how 
do you analyze it, and then how do you make changes to your 
delivery.
    That is going to be new for them, and I think they are 
going to need some resources there. And I think, also, they are 
going to need resources in executing on their strategic plan.
    Mr. Davis. Well, thank you.
    And thank you all for being here today.
    I will yield back the balance of my time.
    The Chairman. The gentleman yields back.
    The Chair would now recognize Ms. Lofgren for 5 minutes.
    Ms. Lofgren. Well, thank you very much. And it is pretty 
clear from all the witnesses that we are very much on the right 
track here, and that is very good news.
    Just a couple of, I don't want to say small questions, but 
picky questions.
    The publication of CRS reports has occasioned some 
criticism. I am not suggesting I agree with all the criticisms. 
But I am wondering, Dr. Hayden, I received a letter, or a 
missive, from Demand Progress suggesting various alternatives 
to the website that might be more cost-effective.
    I know the Demand Progress people; they are very capable. 
Have you met with them or would you be willing to sit down with 
them and get their suggestions firsthand and see whether any of 
them would actually work for the Library?
    Ms. Hayden. The CRS reports and the mandate to make the R-
class available is on track to be launched in--and I have the 
date--September 18th of this coming year. And we have 
considered as many things as we can to make sure that timeline 
is being met. And so being able to incorporate any other 
information, I think, would be helpful, but we are definitely 
going to be on track for----
    Ms. Lofgren. Right.
    Ms. Hayden [continuing]. That September 18th----
    Ms. Lofgren. Well, what maybe I can do then is just give 
you the material that was sent to me----
    Ms. Hayden. That would be helpful.
    Ms. Lofgren [continuing]. And you can, you know----
    Ms. Hayden. Right.
    Ms. Lofgren [continuing]. Evaluate that. I do think, 
though, in terms of their digital experience, it is quite 
extensive.
    And I wanted to ask you a question about the Copyright 
Office. They are part of this whole modernization effort, which 
is excellent.
    On the 1201 exemption rulemaking, you announced a 
streamlined process that would allow a petitioner to file a 
simple five-page petition for renewal. I think that is a 
tremendous improvement over past practices and will save 
everybody a lot of time on stuff where there is really no 
disagreement.
    What I am wondering is can this process be streamlined even 
further. For instance, could the Library itself take on the 
role of petitioning the Copyright Office to renew exemptions 
rather than making companies or universities do it?
    And does the Copyright Office even need petitions to renew 
exemptions? If I recall correctly, the basis of the Office's de 
novo review of exemptions comes from report language of just 
one of three committees of jurisdiction on a substantially 
different bill, and that was ultimately stripped out of the 
final bill report.
    So I am wondering--what comes to mind, for example, is the 
exemption for the use of the blind. Nobody is objecting, you 
know, and yet it is this huge process and dustup, and it is 
just a waste of time. And I am wondering if you have looked at 
that or whether you could look at the de novo review process as 
I have outlined here.
    Ms. Hayden. Thank you for bringing that up, because I want 
to take this opportunity to say that Acting Register Temple is 
doing an outstanding job. And she is actually now considering, 
for the record, each of the proposed and new expanded 
exemption----
    Ms. Lofgren. And I didn't mean to downplay the 
improvements, because they are excellent. I just wanted----
    Ms. Hayden. Right. But she is actually considering that, 
and I understand that her recommendations will be available in 
late October of this calendar year. And so, in her role, that 
is her role, to actually advise.
    Ms. Lofgren. Very good.
    I am wondering--and very quickly, on the Law Library, I 
know that we have made some changes there. And the question is 
whether the Law Library will continue to play the role that it 
has traditionally with the changes that have been made.
    The Law Library plays an enormous, important role, not just 
for the United States but for the world. For example, when 
Afghanistan finally emerged from the , the only place in the 
world that had their laws was the Library of Congress----
    Ms. Hayden. Yes.
    Ms. Lofgren [continuing]. Law Library.
    Ms. Hayden. The Law Library of the Library of Congress, a 
separate service unit, is the world's largest and most 
comprehensive collection of legal resources. And it is entirely 
devoted to making sure that those materials and resources are 
available not only to Congress but also some of the Federal 
judicial system as well.
    And the reporting structure in the Library, the alignment, 
is to make sure that the Law Library, like the other service 
units--Copyright and CRS--can concentrate on their mission-
specific activities. So they will continue to be independent. 
They will have their own management of their collections and 
will operationally function the way they are now.
    Ms. Lofgren. That is great. Thank you so much for the 
great----
    Ms. Hayden. Oh, that is a wonderful----
    Ms. Lofgren [continuing]. Work you have done, Dr. Hayden.
    Ms. Hayden. That is a wonderful library.
    Ms. Lofgren. Yes. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. The gentlewoman yields back.
    The Chair will now recognize Mr. Loudermilk for 5 minutes 
for questions.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    Thank you all for being here today. Especially I appreciate 
the work, as a frequent user of the Library. I do value our 
Library of Congress and am a strong advocate to make sure that 
it is there for the needs of Congress, especially in the time 
where knowledge is very important.
    And coming from an IT background, I have worked with many 
companies in implementing strategic plans, and I know the value 
of it.
    One thing I appreciate, Dr. Hayden, is the lack of overdue 
fees for Members of Congress. And I promise the book will be 
back before we go on our August break. And I appreciate the 
prompt service that we get with Congressional Research Service 
and even from the Library, or stacks, I believe, as you guys 
call it.
    Inspector Hyde, a couple of questions for you.
    First of all, I appreciate all of our inspector generals, 
the corps of inspector generals that we have, because I know, 
in serving on several other committees, quite often the 
inspector general is not looked upon in a very favorable light 
by those. And looking from your background, you have been into 
a lot of organizations that, just from looking at your bio, I 
anticipate you had a lot of work to do in especially 
eliminating fraud, waste, and abuse, and I appreciate that kind 
of work.
    In your testimony, you mentioned that, I believe it was 
since 2011, there has been a need for the strategic plan. Is 
that about the time you came on?
    Mr. Hyde. No. I came on in 2014.
    Mr. Loudermilk. OK.
    Mr. Hyde. Or 2013. And so--but it had already been--not 
just strategic planning, but performance management had been 
discussed for quite some time, the changes that were needed at 
the Library.
    Mr. Loudermilk. Was there a strategic plan before 2011?
    Mr. Hyde. There were strategic plans or what they would 
call strategic plans, but then I think the issue was, you know, 
as far as execution of those plans.
    Mr. Loudermilk. OK. So there was a strategic plan in place, 
but----
    Mr. Hyde. There--I am sorry. Go ahead.
    Mr. Loudermilk. I am just saying, there was a strategic 
plan in place? Forgive me.
    Mr. Hyde. The challenge for the Library was there were fits 
and starts, you know, is what I would say. So they would have a 
strategic plan, then there would be no execution or little 
execution of that strategic plan, and then they would have a 
new, something that could be construed as a strategic plan and, 
again, no to little execution. I think this is where it was 
fits and starts.
    But they would have, underneath that, they would have 
initiatives, major initiatives, leading up to--before Dr. 
Hayden came onboard, there was a strategic plan that was 
crafted, and primarily by that leadership--it was an interim 
leadership--to try to just keep the Library moving forward 
until there was a new Librarian put in place.
    Mr. Loudermilk. OK. So that is the strategic plan that is--
the 2011 to 2017 that is currently out there?
    Mr. Hyde. That was the--I think it was the 2016 through the 
2020 plan that was put----
    Mr. Loudermilk. OK. But there is a plan that was dated 2011 
to 2017.
    Mr. Hyde. Right. I believe----I have to check on that. I 
will go back and look at our working papers and get back to you 
on that. But I think that there may have been something----
    Mr. Loudermilk. OK. I have a copy of it, so----
    Mr. Hyde. Oh, OK. Sorry about that.
    Mr. Loudermilk. And my question is getting to, really, what 
was the need for a new strategic plan. Was it the strategic 
plan that was flawed, or was it just a lack of implementation?
    Mr. Hyde. I think it was a combination. The things that we 
have stated in the past on strategic planning was that there 
were insufficient outcome-oriented goals that were in prior 
strategic plans or documents that related to that. Certainly, 
what we have identified as the execution of that--as you 
probably know, it takes a lot of dogged effort throughout many 
years to execute on those goals, and I think that is what we 
were finding was the problem.
    Mr. Loudermilk. OK.
    And just one last question, because I see the yellow light 
is on. And I can submit the other ones for the record that we 
have for follow up. But in the new strategic plan, does the 
mission statement change at all?
    Mr. Hyde. The mission statement--no. I have been updated on 
this, but I think that the mission statement--they have re-
looked at that mission statement and added other elements to 
it, if I recall correctly. And I can----
    Mr. Loudermilk. OK. I appreciate it, because I know the 
mission statement, at least in the 2011, was to support the 
Congress in fulfilling its constitutional duties and to further 
the progress of knowledge and creativity for the benefit of the 
American people.
    I just want to make sure that we are still focused on the 
core element, that the Library of Congress exists predominantly 
to support Congress. But I also applaud the other things that 
we are doing, especially if the strategic plan is generally 
guided to incorporate the new technologies that we have. So 
that is really where I was kind of getting with the questions.
    With that, I see my time has expired. Mr. Chairman, I will 
yield and just submit the other follow up questions for the 
record.
    The Chairman. The gentleman yields back.
    The Chair will now recognize Mr. Raskin for 5 minutes for 
questioning.
    Mr. Raskin. Mr. Chairman, thank you kindly.
    So the focus of the strategic plan, as I am reading it, is 
to advance a user-centered vision of the Library of Congress. 
And I am wondering how much of this effort is digital in nature 
versus work on the traditional pre-digital Library of Congress.
    I don't know if, Dr. Hayden, you want to take the first 
slice of that.
    Ms. Hayden. Information technology is seen as a tool and a 
way of implementing providing services to any type of user--
modernizing the copyright registration process. It is seen as a 
tool in terms of digitizing unique and special collections; 
outreach.
    And so the effort in terms of digital--there is digital 
collecting--will be making sure that we are able to ingest 
things that are born digital. There is digitizing unique items, 
as well as using technology in the most effective way.
    So it is not a ``versus.''
    Mr. Raskin. Yes.
    Ms. Hayden. It is actually a way to provide more access and 
to preserve and conserve as well.
    Mr. Raskin. So, really, the vast majority of the resources 
would go into electronic means of delivering information to 
people?
    Ms. Hayden. Well, what is really interesting and unique 
about the Library of Congress, the world's largest library, 
with so many formats, from film, to those unique manuscripts, 
to diaries, all types of formats, is that technology and 
delivery of the resources and services will not--it will be 
balanced. And so, for instance, in terms of the unique 
collection items that we have, most of those will still be in 
analog form----
    Mr. Raskin. Uh-huh.
    Ms. Hayden[continuing]. Because that is the way they are. 
So it will be a balance. We won't see an entirely electronic 
Library of Congress.
    Mr. Raskin. So help me conceptualize who the user is. Or 
how do you guys conceptualize who the user is? And, you know, 
what fraction of the users encounter the Library just online 
versus enter the doors and work there?
    Ms. Hayden. In terms of physical visits to the Library of 
Congress, the three buildings that are on the Capitol campus--
the Jefferson Building, Adams, as well as the Madison--that is 
approximately 1.8 million people that walk through those doors 
a year.
    In terms of electronic use of the website, over 300 million 
uses of the Library of Congress website.
    And so that gives you a sense of the physical.
    There is also the Culpeper facility, and there are people 
who are utilizing that, coming for programming and other 
things. And the National Library for the Blind and Physically 
Handicapped. And then there is also the operation of the 
copyright process, and those are significant numbers as well.
    Mr. Raskin. Terrific.
    OK. I am going to yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    I want to thank each of you for being here as we continue 
our oversight of the Library of Congress and get a chance to 
get these updates.
    As a point of personal privilege, I have 5 more months and 
a few days left, and I will truly miss my role with the Library 
of Congress. Dr. Hayden, you have been a joy to work with. We 
look forward to the future.
    With that and without objection, all Members will have 5 
legislative days to submit to the chair additional written 
questions for the witnesses.
    And should you get those written questions, we would ask 
that you respond as soon as you could so that those answers can 
be made a part of the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Without objection, this hearing is adjourned.
    [Whereupon, at 12:24 p.m., the Committee was adjourned.]
</pre></body></html>
